      Department of Homeland Security




       Independent Review of U.S. Customs and Border 

       Protection’s Reporting of FY 2012 Drug Control 

               Performance Summary Report 





OIG-13-35                                      January 2013

                          OFFICI':    or Il\SPECTOR (;l::NERAL
                              lkpanm~nl    or Homd "nd   Soc~rily




                                 JAN 3 1 l013

MEMORANDUM       FOR:         Eugene H. Schied
                              Assistant Commissioner
                              U.S. Customs and Sorder Prot""tion


FRO M:                        Anne l. Richards
                              Assistant Inspector Genera I for Audits

SUBJECT:                      Independent Review of u.s. Customs and Border
                              Protection's Reparting of FY 2011 Drug Control
                              Performance Summary Report

Attached for your information is our final report, Independent Review of u.s. Customs
and Border Protection'5 Repolfin(J of FY 2012 Drug Control Performance Summary
Report. US. Customs and Border Protection's management prepared the Performance
Summary Report and manag~ment assertions to comp ly with the requirements of the
Office of National Drug Control Po licy Circular, Drug Control Accounting, dated Ma y 1,
2007.

We contracted with the independent public accounting firm ~PMG Ll P to perform the
review. KPMG UP is res ponsible for the attached independent accountants' report,
dated January 25, 2013, and the conclusions expressed in it. We do not express an
opinion on the Performance Summary Report or management's assertions. This report
cont ains no recommendations.

Consistent with our responsibility unde r the Inspector General Act, We are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibil ity OVN the Department of Home land Security. We will post
the report on our website for pu blic dissem ination.

Plea~e call me with any que~tio n s, or your staff may contact Mark Bell, Deput y Assistant
Inspector General for Audits, at (02) 2S4-4100

Attachment
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                              Independent Accountants’ Report



Deputy Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Performance Summary Report of the U.S. Department of
Homeland Security’s (DHS) Customs and Border Protection (CBP) for the year ended
September 30, 2012. We have also reviewed the accompanying management’s assertions for the
year ended September 30, 2012. CBP’s management is responsible for the Performance
Summary Report and the assertions.

Our review was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants, and applicable standards contained in Government
Auditing Standards, issued by the Comptroller General of the United States. A review is
substantially less in scope than an examination, the objective of which is the expression of an
opinion on the Performance Summary Report and management’s assertions. Accordingly, we do
not express such an opinion.

Management of CBP prepared the Performance Summary Report and management’s assertions
to comply with the requirements of the Office of National Drug Control Policy (ONDCP)
Circular, Drug Control Accounting, dated May 1, 2007 (the Circular).

Based on our review, nothing came to our attention that caused us to believe that (1) the
Performance Summary Report for the year ended September 30, 2012, is not presented, in all
material respects, in conformity with the Circular, or that (2) management’s assertions referred
to above are not fairly stated, in all material respects, based on the criteria set forth in the
Circular.

This report is intended solely for the information and use of the management of DHS and CBP,
the DHS Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and
should not be used by anyone other than these specified parties.




January 25, 2013





                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                                      13 00 Pennsylvania Avt'nue NW
                                                                      Washmgton. DC 20229



                                                                      u.s. Customs and
                                                                      Border Protection
   JAN 2 5 2013

MEMORANDUM FOR:              Ms. Anne L. Richards
                             Assistant Inspector General for Audit
                             Department of Homeland Security

FROM:                        Deborah J. Schilling
                             Chief Financial Officer
                             Office of Administration

SUBJECT:                     Management's Assertions for CBP's Performance Summary
                             Report to ONDCP

In compliance with the Office of National Drug Control Policy (ONDCP) Circular, Drug Control
Accounting, dated May I, 2007. U.S. Customs and Border Protection (CBP) submits its
Performance Summary Report to ONDCP. The report contains the results ofCBP's Fiscal Year
(FY) 2012 performance in support of the National Drug Control Strategy.

CBP makes the following assertions:

   (1) Performance reporting system is appropriate and applied. CBP has a system to capture
       performance information accurately and the system was properly applied to generate the
       performance data:

           (a) The source of the data for the performance measure amount of Currency Seized
               on Exit from the United States is obtained from TECS (Drug Control Decision
               Unit - Salaries and Expenses);

           (b) The source of the data for the performance measure - Percentage of Joint
               Interagency Task Force - South Annual Mission Hour objective achieved is TECS
               (Drug Control Decision Unit - Air and Marine Operations); and

           (c) The source of the data for the performance measure, Number of Apprehensions on
               the southwest border between the Ports of Entry is the e3 Processing Database
               (Drug Control Decision Unit - Salaries and Expenses).

   (2) All but one of the performance targets in FY 2012 were met, and an explanation for the
       missed target for 'Outbound currency seizures at the ports of entry' is provided in
       Performance Summary Report;

   (3) Methodology to establish performance targets is reasonable and applied. Professional
       judgement was used in establishing performance measure targets based on subject matter
       experts with several years of experience in the field; and
Management's Assertions for U.S . Customs and Border Protection's Drug Seizure Data
Page 2


   (4) Adequate perfonnance measures exist for all significant drug control activities. CBP has
       established at least one acceptable perfonnance measure for each Drug Control Decision
       Unit identified in reports. Each perfonnance measure considers the intended purpose of
       the National Drug Control Program Activity.


To address any questions you have regarding this submission, please contact me at
(202) 344-2300, or a member of your staff may contact Mr. James McNally, Director, Investment
Analysis Office, at (202) 344- 1651.




Deborah J. Schilling
                            U.S. Department of Homeland Security

                             U.S. Customs and Border Protection

                               Performance Summary Report

                                          FY 2012


The performance measures presented below directly link to the 2012 National Drug Control
Strategy by evaluating U.S. Customs and Border Protection (CBP) success in disrupting
domestic drug trafficking. This Performance Summary Report (PSR) contains at least one
performance measure per drug control decision unit as required by the Office of National Drug
Control Policy (ONDCP) Circular, Drug Control Accounting, dated May 1, 2007. The drug
control decision units are as follows: (1) Salaries and Expenses, (2) Border Security Fencing,
Infrastructure and Technology, and (3) Air and Marine Operations. Based on this PSR, the
attached Management Assertions letter states the following: (1) the performance reporting
system is appropriate and applied; (2) all but one of the performance targets in FY 2012 were
met and an explanation for the missed target for ‘Outbound currency seizures at the ports of
entry’ is provided in the discussion below; (3) the methodology used to establish performance
targets is reasonable and applied; and (4) adequate performance measures exist for all significant
drug control activities.

Drug Control Decision Unit – Salaries and Expenses

Performance Measure – Office of Field Operations – Amount of currency seized on exit from
the United States.

(1) Performance Measures

This measure assists in evaluating CBP’s success in disrupting domestic drug trafficking at the
land and air ports of entry, a key outcome for the National Drug Control Strategy. Since this
measure is based upon the seizure-related enforcement outcomes of CBP’s Outbound
enforcement program, the measure provides an indicator of the success that CBP has in
disrupting domestic drug trafficking at our borders by stemming the flow of potential narcotics-
related proceeds destined to criminal or transnational groups.

The CBP Office of Field Operations (OFO) conducts risk-based Outbound operations at land
border ports and airports enabling CBP to enforce U.S. laws and regulations applying to the
Outbound arena, including immigration and drug laws. The Outbound enforcement program is
part of CBP’s effort to effectively monitor and control the flow of goods and people leaving the
United States. The goal of CBP’s Outbound enforcement program is to keep the United States
safe by preventing the illicit export of goods, ranging from firearms to components of weapons
of mass destruction, from falling into the hands of terrorists, criminal elements and individuals
seeking to circumvent U.S. export control laws and to disrupt criminal elements and terrorist
organizations by interdicting their proceeds and arresting members of their organizations. A
number of presidential strategies, including the President’s National Export Initiative, the
President’s Export Control Reform Initiative, the National Drug Control Strategy, and the
National Southwest Border Counternarcotics Strategy, designate the Outbound program as a
crucial component in the war on drugs.
U.S. Customers and Border Protection Summary Report FY 2012
Page 2
This measure is calculated from Outbound seizure-related enforcement action data entered into
TECS by the CBP Officer at the time of occurrence of the violation. TECS provides computer-
based access to enforcement files of common interest, on-line access to the Federal Bureau of
Investigation’s National Crime Information Center, as well as an interface with the National Law
Enforcement Telecommunications System. Its enforcement transaction data is made available to
the Border Stat information system. The summary data is compiled and extracted into the
Operations Management Report (OMR) module in Border Stat on a monthly basis. The monthly
summary data is reviewed by OFO’s Outbound Program Manager to verify accuracy and identify
and investigate anomalies. The monthly data in support of this measure is compiled on a
quarterly and annual basis and reported to Department of Homeland Security.

(2) Prior Years Performance Targets and Results

Fiscal Year (FY):     FY 2008       FY2009        FY2010       FY 2011       FY2012
Target:               None          None          None         $40.0M        $35.0M
Actual:               $33.8M        $58.1M        $47.37M      $47.35M       $31.9M

OFO did not formally collect or report this performance measure to DHS during the period FY
2008 through FY 2010. Because of this, no targets were set for this measure over this time
period. Selective Outbound operations were conducted in FY 2008 and regular risk-based
Outbound operations were initiated on a test basis beginning in May 2009, prior to formally
creating the Outbound Division in FY 2010. Substantially more currency was seized in FY 2009,
once resources were dedicated to Outbound enforcement on a regular basis, as compared to FY
2008. This measure was selected as a DHS Government Performance and Results Act (GPRA)
strategic measure beginning in FY 2011. The FY 2012 target of $35M was derived from
analysis of available Outbound program seizure data for FY 2010 and 2011, based on risk-based
Outbound enforcement operations. For FY 2012, CBP was unable to reach this target, with a
total of $31.9M seized. The initiation of regular risk-based Outbound operations in FY 2009
may have influenced changes in illegal activity on the part of smugglers in subsequent years,
with decreases observed in both the total amounts seized and the number of large seizures (over
one million dollars) in FY 2012 as compared to FY 2009. The deterrence effect of conducting
Outbound enforcement operations has resulted in a decrease in the amount of currency seized
over time as smuggling organizations have made adjustments to their activities.

(3) Current Year Performance Targets

Fiscal Year: FY 2013
Target:      $30M

Currently, CBP conducts limited risk-based Outbound enforcement operations, examining only
departing goods and travelers identified as high-risk based on CBP Officer assessment at the
ports and/or automated systems alerts triggered by available data. This data includes information
such as lookouts placed in TECS or provided to officers by agents from Immigration and
Customs Enforcement (ICE), members of the Border Enforcement Security Teams (BEST),
agents from the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), local law
enforcement officers, or derived from various licensing agencies targeting controlled or sensitive
U.S. Customers and Border Protection Summary Report FY 2012
Page 3
items departing the U.S. contrary to law; TECS records flagged by license plate readers (LPRs),
the National Targeting Center (NTC), or the El Paso Intelligence Center (EPIC); and alerts
triggered by the Automated Targeting System (ATS). Based upon this risk-based operational
strategy and the deterrence effect associated with a relatively new program (as described above),
a decrease in the amount of currency seized is an expected outcome, which resulted in setting a
performance target for FY 2013 at $30.0M. If Outbound enforcement operations are maintained
at the same level in FY 2013 and beyond, then it is expected that the deterrence effect upon
illegal activities will be maintained and that the target will continue to be set at $30.0M for FY
2014 and subsequent years.

(4) Quality of Performance Data

The data underlying this measure is accurate, complete and unbiased. CBP Officers enter
information into TECS (the principle system of record used by CBP) for each currency seizure
performed. A first line supervisor must review the information and approve it before it can be
extracted and included in daily, monthly and annual reporting. A validation check is also
conducted when the data is extracted from TECS and reported via the BorderStat management
reporting system. The reported results are reviewed by the Outbound Program Manager for
accuracy and identification of anomalies, which are researched and resolved.

Drug Control Decision Unit – Border Security Fencing, Infrastructure and Technology

Performance Measure – Office of Border Patrol - Number of apprehensions on the Southwest
Border between the ports of entry.

(1) Performance Measures

This measure assists in gauging CBP’s success in addressing areas of greatest risk, including
areas that experience narcotics smuggling, along our Nation’s borders. The measure targets an
overall reduction in the number of apprehensions along the Southwest border from historic
levels. Although many factors, including enforcement, the economy, and natural disasters, can
contribute to the ebbs and flows of apprehensions, a key change in CBP’s enforcement posture
over the past several years since 9/11 has been a healthy build-up in resources and capabilities, 

including fencing, infrastructure and technology. This vastly improved enforcement posture has 

coincided with an overall decrease in apprehensions since 2005. 

The U.S. Border Patrol is the principal operational component that works to mitigate all threats –

terrorists and weapons of terrorism, smuggling of narcotics, other contraband, and people, and 

the illegal entry of people across the border. Border Patrol agents prepare for, detect, and 

intercept any and all combinations of these threats that present themselves along the borders. 

The enforcement advantage gained from fencing, other infrastructure, and technology, such as 

sensors and cameras, allows agents to more effectively and efficiently perform their duties to 

detect, identify, and intercept threats.


Funds and resources provided for in 2010 created an even stronger enforcement environment for 

2011, as noted in the 2011 National Drug Control Strategy.1 These came in the form of the 

1
    Executive Office of the President of the United States, 2011 National Drug Control Strategy, 2011, p. 60.
U.S. Customers and Border Protection Summary Report FY 2012
Page 4
Emergency Supplemental for Border Security (Public Law 111-230) signed in August 2010 by
President Obama, which provided funds for hiring additional Border Patrol agents and other law
enforcement and Department of Justice resources; the continuation of the Alliance to Combat
Transnational Threats (ACTT); and the 2010 authorization for the temporary deployment of
additional National Guard troops along the Southwest border for Operation Phalanx – for a time
period that included all of FY 2011. The deployments contributed “additional capabilities and
capacity to assist law enforcement agencies as a bridge to longer-term enhancements in the
efforts to target illicit networks’ trafficking in people, drugs, illegal weapons, money, and
violence associated with these illegal activities…[t]heir support has allowed CBP to bridge the
gap and hire additional agents to support the Southwest border, as well as field additional
technology and communications capabilities that Congress provided.”2

Operation Phalanx was continued in FY 2012 and has been extended until December 31, 2012.
From inception until February 29, 2012, the National Guard provided up to 1,200 personnel3 to
support U.S. Border Patrol and Immigration and Customs Enforcement (ICE) with its Southwest
Border Security mission in four Southwest Border states: California, Arizona, New Mexico, and
Texas. These personnel performed duties as Entry Identification Team members, Remote Video
Surveillance System operators, and Mobile Surveillance Capability operators. On March 1,
2012, the National Guard transitioned from “Boots on the Ground” and began providing
surveillance via rotary and fixed wing aerial platforms. There are currently a total of 22
airframes allocated to the Tucson, Laredo, and Rio Grande sectors. From March 1, 2012 to
September 30, 2012, 14,511 apprehensions were made by the Border Patrol with Operation
Phalanx assists. During this same time period, Border Patrol agents seized 85,871.21 pounds of
marijuana with Operation Phalanx assists.

One of the principal areas of concern in FY 2011 and FY 2012 was Arizona, especially Tucson
Sector, where both apprehensions and marijuana seizures were higher than in any other Border
Patrol sector.4 Accordingly, many of the resources discussed above were focused on Tucson
sector in FY 2011 and FY 2012. Stronger enforcement resources and better detection
capabilities correlated with a decrease in apprehensions,5 as shown in the measure results below.
Concurrently, as fewer people attempted illegal entries, agents were able to turn more attention
and capabilities towards detecting and intercepting other threats, such as narcotics. In fact, in
Tucson sector, as apprehensions decreased from 212,202 in FY 2010 to 123,285 in FY 2011 and
120,000 in FY 2012, marijuana seizures in Tucson Sector increased from 1,033,227 pounds in
FY2010 to 1,039,443 pounds in 2011, and in FY 2012 fell to 1,015,332 pounds, or 44% of total
marijuana seizures on the Southwest border. In Arizona’s adjoining Yuma sector, where

2
  Ibid.
3
  Letter from Assistant to the President for Homeland Security and Counterterrorism and National Security Advisor
on Southwest Border Security to Senator Levin, Chairman of Senate Armed Services Committee, available at
http://www.whitehouse.gov/sites/default/files/Letter_to_Chairman_Levin.pdf.
4
  In 2010, Tucson sector was responsible for 212,202 of the total 463,382 national apprehensions, or 46%and for
47% of the 447,731 total Southwest border apprehensions; and for 1,033,227 pounds of the total 2,431,214 pounds
of national marijuana seizures, or 42%, and for 43% of the 2,417,170 total pounds of Southwest border seizures. In
2011, Tucson sector was responsible for 123,285 of the total 327,577 Southwest border apprehensions, or 38%; and
for 1,039,443 pounds of the total 2,518,211 pounds of marijuana seizures, or 41%.
5
  Apprehensions fell in Tucson sector in FY 2011 to 123,285 from 212,202 in FY 2010, a 42% reduction. They
declined again (but began leveling off) in 2012 to 120,000, a 3% reduction.
U.S. Customers and Border Protection Summary Report FY 2012
Page 5
apprehensions in FY2012 remained below 2 percent of total Southwest border apprehensions
(Yuma sector had 6,500 apprehensions in FY2012, or less than 2 percent of the 356,873
Southwest border apprehensions), heroin seizures were up 147 percent to 1,089 ounces in 2012,
from 441 ounces in 2011. This represented 17 percent of all Southwest border heroin seized in
FY2012.

(2) Prior Years Performance Targets and Results

This performance measure began in FY 2011.

Fiscal Year: FY 2008               FY2009            FY2010            FY 2011    FY2012
Target:      N/R6                  N/R               N/R               < =390,000 < =371,000
Actual:      705,005               540,865           447,731           327,577    356,873

The Border Patrol was successful in meeting its target to reduce apprehensions along the
Southwest border during a time when comprehensive and focused activities by the Border Patrol
took place, especially in the Tucson sector of Arizona, where apprehensions were highest.
Measures taken in FY 2011 and FY 2012 that were aimed at decreasing apprehensions included
the continuation of the operation ACTT; the positioning in 2011 and maturation in 2012 of 1,000
additional agents along the Southwest Border; and the deployment of National Guard troops
along the Southwest border.

(3) Current Year Performance Targets7

Fiscal Year: FY 2013
Target:      ≤ 391,000

The goal to decrease apprehensions on the Southwest border from 447,731 in FY 2010 to
390,000 or fewer in FY 2011 and 371,000 or fewer in FY 2012 was based on the recognition that
with less illegal alien volume across the border, agents can devote more time to other law
enforcement efforts and techniques, including the detection and interdiction of narcotics. As
discussed above, significant efforts were made and resources were focused in FY 2011 and FY
2012 in the Tucson Sector of Arizona to drive down apprehensions. This led to an even greater
reduction in apprehensions than had been projected, ending FY 2012 with 356,873
apprehensions Apprehensions are expected to rise in FY2013, but are expected to remain low
compared to historical numbers.

(4) Quality of Performance Data

The data underlying this measure is valid, accurate, complete, timely and consistent. In an
independent Verification and Validation (V&V) review of this performance measure completed
in June 2011, the measure was found to “demonstrate exemplary data quality and the data is


6
 Not reported. 

7
 Performance targets are based on the expert opinions of operational and programmatic staff at headquarters, with

consultation as needed from field offices.

U.S. Customers and Border Protection Summary Report FY 2012
Page 6
highly useable as it applies to this measure. The measure is considered complete and reliable.” 8
Five factors were considered in the V&V. These factors, along with the corresponding overall
score for each factor, are shown below:

Valid:           8 (out of 10)
Accurate:        8 (out of 10)
Complete:        8 (out of 10)
Timely:          10 (out of 10)
Consistent:      10 (out of 10)

This resulted in an overall V&V score of 9 (out of 10).

The highlights of each factor are presented below:

Valid:
   •	 Measure meets performance goal and contributes to Department of Homeland Security
       strategic goals and objectives.
   •	 Measure aligns to U.S. Customs and Border Protection and Border Patrol strategic goals
       and objectives.
   •	 The measure is valid as a short–term measure, since specific enforcement enhancements
       in the Tucson sector were used to explain the decrease in apprehensions. Other factors
       that could influence the level of apprehensions remained fairly constant during this short
       time period.

Accurate:
   •	 Potential sources of error in data entry of apprehensions are identified by monthly data
      quality reports at the Headquarters level, and any discovered errors are corrected at the
      station level by designated points of contact.
   •	 Detailed processes and procedures for gathering and entering apprehension data are
      documented in the Border Patrol Handbook. The Border Patrol Training Academy
      conducts a 6-day course for all incoming agents on processing and entering apprehension
      data into the system of record.
   •	 As per the Border Patrol Handbook, supervisors at the station level are responsible for the
      integrity of data entered into the system on their shifts.

Complete:
  •	 The parameters of an apprehension constitute a defined scope, giving clarity to data that
      should be entered as an apprehension.
  •	 Data is reported for the entirety of the Southwest Border between the ports of entry on a
      daily, monthly, annual, and ad hoc basis.
  •	 Reporting controls ensure that all stations report apprehension data daily.



8
 Energetics (a subsidiary of VSE Corporations), Independent Verification and Validation of Performance Measure
Data, June 2011, p. 1.
U.S. Customers and Border Protection Summary Report FY 2012
Page 7
Timely:
   •	 An apprehension report is run and delivered at the Headquarters level for each calendar
       month, no later than the 7th day of the following month.
   •	 Quarterly results for this measure are forwarded to CBP’s Performance Management and
       Analysis Division by the end of the month following the close of the quarter; date stamps
       for transmission show that reports were sent on time.
   •	 Field and Headquarters personnel receive a daily apprehension report from the
       Headquarters Statistics unit, showing apprehensions, narcotics seizures, and other data
       from each sector. These reports can also be run as needed for any defined time period,
       allowing field teams to adjust resources and operations as needed to respond to trends.

Consistent:
   •	 Uniform definitions and concepts for processing illegal aliens are established in the
       Border Patrol Handbook and at the Academy.
   •	 The same system, e3 Processing Database, is used across all field stations for collecting
       and processing data.

The reviewer’s policy is to offer recommendations for improvement for any areas that do not
receive a perfect score of 10. Therefore, though the Border Patrol measure scored a 9 in the
2011 Assessment Report, areas for improvement were noted. In FY 2012 the independent V&V
reviewer followed up to conduct a Post-assessment Action Review of the Border Patrol’s
“implementation of the recommendations presented in the 2011 Measure Assessment Report.”9
The reviewer determined that the Border Patrol had addressed all recommendations from the
previous year. The recommendations and program actions are summarized as follows10:

              Recommendation from the
                                                                               Program Actions
           2011 Measure Assessment Report

The Independent Review Team recommends that the              Due to already on-going efforts to capture and analyze
component develop a full-scale logic model (and              more apprehension data the program did not develop
supporting text) that describes how its deterrence           the full scale logic model recommended
activities impact apprehensions of illegal aliens crossing
                                                             This action addressed the recommendation and
the border. The model should include any external factors
                                                             improved the validity of the measure.
that may impact steps in the apprehension process. This
establishes a more meaningful context for making a
judgment of program effectiveness.

The Independent Review Team recommends that the              Due to already on-going efforts to capture and analyze
component develop measures and supporting data at each       more apprehension data the program did not create
step in the apprehension process to enhance information      additional measures for each step of the apprehension
on program effectiveness.                                    process.
                                                             This action addressed the recommendation and
                                                             improved the validity of the measure.

The Independent Review Team recommends that the              The Consequence Delivery System (CDS) provides

9
  Energetics (a subsidiary of VSE Corporations), Post-Assessment Improvement Actions: Review and Report of 

Findings, June 2012, p. 1. 

10
   Ibid., p. 7.

U.S. Customers and Border Protection Summary Report FY 2012
Page 8
component provide data about extraneous factors and          the program with additional resources to analyze
border patrol effectiveness to either verify that these      apprehension data. A CDS report can break down
variables did not contaminate the measure results or to      apprehension data into specific categories and track
normalize the data across time periods when these other      apprehended aliens over the course of their life.
variables underwent significant change.
                                                             This action addressed the recommendation and
                                                             improved the validity of the measure.

The Independent Review Team recommends that CBP, in          To combat inconsistencies the program developed an
conjunction with other Components, examine whether or        additional report to help identify inconsistencies, it
not particular entries can be locked in the e3 Processing    then submits a system change request to the
Database. Ideally, entries could only be altered by users    Enforcement Systems branch to have the
with a certain status (e.g., Supervisory) and a pin number   inconsistencies fixed.
associated with that entry. For example, only the CBP
                                                             This action addressed the recommendation and
supervisor of where the entry originated from can change
                                                             improved the accuracy of the measure.
a CBP entry or CBP personnel with administrative access
to the whole database, such as the IT department or the
Statistics and Data Integrity unit chief could change a
CBP entry.

The Independent Review Team recommends that CBP              Updates to the e3 Processing Database, the Border
update the Border Patrol Handbook and Academy                Patrol Handbook and Border Patrol training materials
training materials to reference the current processing       is a lengthy process, but underway. The handbook is
system used, e3, instead of the old system, ENFORCE.         going through the approval process now.
                                                             This action addressed the recommendation and
                                                             improved the accuracy of the measure.

The Independent Review Team recommends that CBP              The program updated the description of the scope to
update the Description of Measure field and the Scope of     specify that only apprehensions made by the Border
Data field in the FYHSP system to clarify that the only      Patrol are included in the measure.
apprehensions covered by the measure are those made by
                                                             This action addressed the recommendation and
the Office of Border Patrol.
                                                             improved the completeness of the measure.

The Independent Review Team also recommends that             The program is also developing a Border Patrol
CBP develop documentation, other that the FYHSP              lexicon that defines some the terms listed in the
printout, that defines basic elements of the measure scope   recommendation. The lexicon is in the approval
and basic elements of their activities such as               process right now.
apprehension, arrest, Southwest Border, Northwest
                                                             This action addressed the recommendation and
Border, Non-Mexican, Non-Canadian, etc.
                                                             improved the completeness of the measure.


Drug Control Decision Unit – Air and Marine Operations

Performance Measure – Office of Air and Marine – Percentage of Joint Interagency Task
Force-South (JIATF-S) annual mission hour objective achieved.

(1) Performance Measures

This performance measure identifies the degree to which the CBP Office of Air and Marine
(OAM) meets its intended flight hours for JIATF-S in support of the National Drug Control
Strategy.
U.S. Customers and Border Protection Summary Report FY 2012
Page 9
The National Interdiction Command and Control Plan (NICCP) sets the overarching operational
architecture for organizations involved in interdicting illicit drugs in keeping with the goals and
objectives of the National Drug Control Strategy. JIATF-S is the tasking coordinator and
controller for counter-drug missions within the transit and source zones. JIATF-S submits its
resource allocation requirements through the NICCP. The Department of Homeland Security
responds to the requirements in a Statement of Intent. OAM typically supports JIATF-S requests
with P-3 Airborne Early Warning (AEW) and P-3 Long-Range Tracker (LRT) aircraft, but has
also supported JIATF-S with other aircraft, including its Dash 8, Chet, and C12M fixed-wing
aircraft; Blackhawk rotor-wing aircraft; and unmanned aircraft systems.

As a result of the August 19, 2003, Presidential Determination Regarding U.S. Assistance to the
Government of Colombia Airbridge Denial Program, OAM began receiving funding in FY 2005
to support JIATF-S as part of its base budget.

(2) Prior Years Performance Targets and Results

The Percentage of JIATF-S Annual Mission Hour Objective Achieved was a new measure in FY
2011.

Fiscal Year: FY 2008        FY2009        FY2010       FY 2011        FY 2012
Target:      None           None          None         100%            100%
Actual:      N/A            N/A           N/A          100%            100%

While the performance measure was new in FY 2011, OAM did track actual flight hours flown
in support of JIATF-S in prior fiscal years. The actual flight hours for FY 2008 through FY
2010 are available, but a percentage cannot be provided for those years since the performance
measure did not exist and there was not target to calculate the percentage.

In the NICCP, dated March 17, 2010, JIATF-S forecasted its FY 2011 support requirements for a
range of aircraft. In its FY 2011 Statement of Intent, the Department of Homeland Security
responded to the requirements in the NICCP. In a memorandum dated October 27, 2011, U.S.
Customs and Border Protection Commissioner Alan Bersin notified Office of National Drug
Control Policy Director R. Gil Kerlikowske the following: “based on current anticipated budgets
and planning estimates, CBP expects to be able to support between 5,000 and 6,000 P-3 flight
hours in the transit zone” with the amount of funding budgeted for this effort.

During FY 2012, OAM met JIATF-S requests with P-3 aircraft. The OAM P-3 aircraft flew a
total of 5,593.1 hours, meeting 100 percent of the hours intended for JIATF-S for support in the
transit zone that were anticipated in the 2011 memorandum to Office of National Drug Control
Policy Director R. Gil Kerlikowske.
U.S. Customers and Border Protection Summary Report FY 2012
Page 10


(3) Current Year Performance Targets

Fiscal Year: 2013 

Target:      Provide 100 percent of the 5,000 hours of JIATF-S support for the transit zone. 


   In the FY 2013 Department of Homeland Security Statement of Intent, CBP stated that it
   would provide 5,000 flight hours in the transit zone.

(4) Quality of Performance Data

The data underlying this measure is accurate, complete and unbiased. OAM P-3 flight data are
recorded using a Post Flight Record Form (CBPAVP-051-2 RI 26 July 2004). The flight data
entry is then validated against the Computerized Aircraft Reporting and Material Control
(CARMAC) System, which is utilized by aircraft maintenance to track flight time accrued on the
aircraft. The flight data is then checked monthly against the Air and Marine Operations Report
(AMOR) module of TECS; its data can be queried through any CBP computer with appropriate
access.
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Office of National Drug Control Policy

   Associate Director for Planning and Budget

   U.S. Customs and Border Protection

   Commissioner
   Chief Financial Officer
   Audit Liaison

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-13-35

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
